                             United States Attorney John P. Kacavas
                                   District of New Hampshire


FOR IMMEDIATE RELEASE                                             CONTACT: Theresa A. Leppard
Monday, September 23, 2013                                        (603) 230-2502
http://www.justice.gov/usao/nh/                                   email: usanh.media@usdoj.gov


                JAMES BENDER SENTENCED FOR CONSPIRACY TO DEFRAUD 

               INTERNATIONAL CUSTOMERS OF NEW HAMPSHIRE BUSINESS


       CONCORD, N.H. – James Bender, 49, of Sharon, Massachusetts, was sentenced in United
States District Court for the District of New Hampshire to 24 months in prison for conspiracy to
commit wire fraud, announced United States Attorney John P. Kacavas.

        Bender, a former Senior Vice President of Trade Finance for Sovereign Bank, was convicted
in May of conspiring to defraud foreign customers of more than $200,000.00. He conspired with
Paul Wilson, the former Manager of International Trade Finance for Goss International Americas
Corporation, to defraud several Latin American customers. Goss manufactures commercial printing
presses. One component of Wilson’s job was to facilitate international sales by arranging financing
for foreign purchasers of Goss’s products and working with the Export-Import Bank of the United
States to obtain credit insurance for loans extended to Goss’s foreign customers. Bender arranged
for Sovereign Bank to purchase most of the loans Goss extended to its foreign customers.

       Bender and Wilson formed two shell companies called Zephyr Capital LLC and Zephyr
Financial LLC, through which they defrauded two Brazilian and two Mexican businesses that
purchased presses from Goss. Bender and Wilson used the shell companies to send fraudulent
invoices to these businesses charging them for loan underwriting services that were either never
rendered or that Wilson performed as part of his job at Goss. The invoices totaled over $200,000 in
bogus charges. Most of the victim companies wired payments for the fraudulent invoices to Zephyr
bank accounts in the United States, which Bender and Wilson divided between themselves over a
four year period.

       Bender was also fined $7,500.00, ordered to pay restitution in the amount of $195,457.67
and sentenced to serve three years of supervised release.

      Wilson pleaded guilty last year to three counts of wire fraud in connection with this scheme
and was later sentenced to one year and one day in prison.

      This case was investigated by the Office of the Inspector General for the Export-Import
Bank of the United States was prosecuted by Assistant United Sates Attorney Mark S. Zuckerman.
                                                ###
